           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   ADMINISTRATIVE COSTS CLAIMED
     BY THE OREGON DISABILITY
     DETERMINATION SERVICES

      April 2012   A-09-11-11163




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      April 25, 2012                                                      Refer To:

To:        Stanley Friendship
           Regional Commissioner
            Seattle

From:      Inspector General

Subject:   Administrative Costs Claimed by the Oregon Disability Determination Services
           (A-09-11-11163)


           OBJECTIVE
           Our objectives were to (1) evaluate the Oregon Disability Determination Services’
           (OR-DDS) internal controls over the accounting and reporting of administrative costs;
           (2) determine whether costs claimed by OR-DDS were allowable and funds were
           properly drawn; and (3) assess, on a limited basis, the general security controls
           environment.

           BACKGROUND
           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), 1 provides benefits to wage earners and their families in the event the
           wage earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, 2 provides payments to financially needy
           individuals who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) implements policies for the development of
           disability claims under the DI and SSI programs. 3 Disability determination services
           (DDS) in each State or other responsible jurisdiction perform disability determinations
           under both DI and SSI. A DDS is required to make disability determinations in
           accordance with Federal law and underlying regulations. 4 In carrying out its obligation,
           1
               Social Security Act § 223(a)(1); 42 U.S.C. § 423(a)(1).
           2
               Social Security Act §§ 1602 and 1611; 42 U.S.C. §§ 1381a and 1382.
           3
               SSA, POMS, DI 00115.001 (May 21, 2009).
           4
            Social Security Act §§ 221 and 1614; 42 U.S.C. §§ 421 and 1382c; see also 20 C.F.R. §§ 404.1601
           et seq. and 416.1001 et seq.
Page 2 – Stanley Friendship


each DDS is responsible for determining claimants' disabilities and ensuring adequate
evidence is available to support its determinations. To assist in making proper disability
determinations, each DDS is authorized to purchase medical examinations, x rays, and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants' physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to
its approved funding authorization. 5 The DDS withdraws Federal funds through the
Department of the Treasury's (Treasury) Automated Standard Application for Payments
system to pay for program expenditures. Funds drawn down must comply with Federal
regulations 6 and intergovernmental agreements entered into by Treasury and States
under the Cash Management Improvement Act of 1990. 7

An advance or reimbursement for costs under the program must comply with Office of
Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments. At the end of each quarter of the fiscal year (FY), each
DDS is required to submit a State Agency Report of Obligations for SSA Disability
Programs (Form SSA-4513) to account for program disbursements and unliquidated
obligations. 8 The Form SSA-4513 reports expenditures and unliquidated obligations
for Personnel, Medical, Indirect, and All Other Non-personnel costs. 9

OR-DDS is a component of the Seniors and People with Disabilities Division within
the Oregon Department of Human Services (OR-DHS). As of September 30, 2010,
OR-DDS had disbursed administrative costs of $25.2 million in FY 2009 and
$26.1 million in FY 2010, of which consultative examination (CE) costs were $5.6 and
$5.8 million, respectively.

RESULTS OF REVIEW
Except for the payment of consultant examinations, OR-DDS had effective internal
controls over the accounting and reporting of administrative costs. We found that all
other administrative costs OR-DDS claimed were allowable and funds were properly
drawn. Finally, OR-DDS had adequate controls over its general security controls
environment. Specifically, we found that OR-DDS


5
    20 C.F.R. §§ 404.1626 and 416.1026.
6
    31 C.F.R. § 205.1 et seq.
7
    Pub. L. No. 101-453, in part amending 31 U.S.C. §§ 3335, 6501, and 6503.
8
  SSA, POMS, DI 39506.201 and 202 (March 12, 2002). POMS, DI 39506.200 B.4 (March 12, 2002)
provides, in part, that “Unliquidated obligations represent obligations for which payment has not yet been
made. Unpaid obligations are considered unliquidated whether or not the goods or services have been
received.”
9
    Id.
Page 3 – Stanley Friendship


•     paid an estimated $5.3 million in medical costs for CEs that exceeded the maximum
      amount allowed under Federal regulations (see Appendix C),

•     needed to improve controls to properly secure its workspace from unauthorized
      access, and

•     did not list 17 new laptop computers in its inventory records.

MEDICAL FEE SCHEDULE

OR-DDS did not establish a fee schedule for payment of medical services in
accordance with Federal regulations and SSA policy. We found that OR-DDS
developed a fee schedule based on payment rates from the State workers’
compensation (WC) program. These rates generally exceeded the payment rates
for the Medicare and Medicaid programs and the highest rate paid by other State
agencies for the same or similar types of services. According to the Oregon Workers’
Compensation Division, the WC rates were developed for private insurance companies
and self-insured employers. Other State agencies paid medical providers based on the
Medicaid fee schedule. As a result, SSA reimbursed OR-DDS for medical costs in
excess of the maximum amount allowable under Federal regulations.

Federal regulations require that each State determine the payment rates for medical or
other services necessary to make disability determinations. The rates may not exceed
the highest rate paid by Federal or other State agencies for the same or similar types of
services. 10

SSA policy also requires that each State develop a fee schedule the DDS will use to
pay for CEs. In developing a fee schedule, the DDS may use a Federal fee schedule or
a fee schedule used by another State agency to purchase similar services. The other
State agency could be the DDS parent agency, another agency in the same department
or bureau as the DDS, or any other agency in the State—provided similar types of tests
and services purchased by the DDS are also purchased by the other agency. If the
DDS does not use an existing State fee schedule, the maximum payment rate will be
based on the Medicare fee schedule. 11

SSA policy further requires that the DDS submit an annual CE oversight report,
including a current fee schedule, to SSA within 45 days after the end of the FY. 12 SSA
is required to review and forward the report to its Office of Disability Determinations,
evaluate the DDS’ management of the CE process, and assist the DDS in improving


10
     20 C.F.R. §§ 404.1624 and 416.1024.
11
     SSA, POMS, DI 39545.625 (September 21, 2007).
12
     SSA, POMS, DI 39545.550 (September 21, 2007) and DI 39545.575 (April 20, 2007).
Page 4 – Stanley Friendship


its CE oversight. 13 For FYs 2009 and 2010, we found that OR-DDS had submitted
an annual CE oversight report to SSA, as required. In addition, SSA forwarded the
reports to its Office of Disability Determinations but did not identify any instances of
noncompliance.

Our review disclosed that Medicare paid the highest rate among Federal or other
agencies in the State for the same or similar types of service. For FYs 2009 and 2010,
OR-DDS paid $11.2 million for 43,114 CEs. Based on a random sample of 200 CE
payments, we found that, for 180 CEs, OR-DDS paid $24,627 in excess of the amount
allowed under the Medicare fee schedule. Projecting these results to our population of
43,114 CEs, we estimate that OR-DDS paid about $5.3 million in excess medical costs
for 38,803 CEs (see Appendix C).

OR-DDS believed the higher payment rates were necessary because of the scarcity
of physicians in Oregon and the physicians’ reluctance to accept Medicare rates for
their services. However, according to SSA policy, if a DDS has difficulty obtaining
specific examinations or tests, it must submit a written waiver request to the SSA
regional office. The waiver request should include (1) documentation of the difficulties
in obtaining the necessary testing, (2) specific proposed fees with an explanation of how
those fees were derived, and (3) an analysis of projected change in annual medical
costs. 14 Our review disclosed that OR-DDS did not submit the waiver request to
the SSA regional office, as required. SSA should work with OR-DDS to revise its fee
schedule and ensure future CE payments do not exceed the highest rate allowable by
Federal or other State agencies for the same or similar types of service.

PHYSICAL SECURITY

OR-DDS could improve its physical security controls. Specifically, the (1) janitorial
service had access to DDS workspace after regular work hours and (2) ceiling to the
computer room was not secured.

    Janitorial Service – Non-DDS personnel had unsupervised access to the OR-DDS.
The janitorial service cleaned the office after regular work hours and had access to
sensitive information, including claimant files and records. OR-DDS believed the risk
of unauthorized disclosure was mitigated because the janitorial service conducted
background checks on its employees. However, the janitorial staff was not employed
by OR-DDS.

SSA policy states that offices should be cleaned during work hours, if possible. If not
possible, extra care should be taken to ensure documents containing personally
identifiable information are kept secure overnight.



13
     SSA, POMS, PM 00233.005 (November 14, 2011) and PM 00233.900 (May 23, 2007).
14
     SSA, POMS, DI 39545.625 (September 21, 2007).
Page 5 – Stanley Friendship


Physical safeguards are important to protect the security and confidentiality of sensitive
SSA equipment and records. OR-DDS should arrange for janitorial services to be
provided during regular work hours. If daytime cleaning is not possible, OR-DDS should
ensure all sensitive information is locked after working hours.

    Computer Room – OR-DDS believed the ceiling in the computer room was
secure. However, the area above the ceiling was open and unobstructed. Therefore,
unauthorized individuals could enter the computer room through the false ceiling.
There was no intrusion detection system in these open areas or any type of barrier
to prevent intrusion through the ceiling opening. OR-DDS stated the office building
had noise sensors that would detect intrusions after regular work hours. However,
additional controls were necessary to protect the computer room during work hours.

SSA policy states the walls of the computer room should have slab-to-slab construction
to prevent unauthorized entry or be secured by a chain link fence, heavy wire mesh, or
motion sensor device in the space between the facility’s false and true ceiling.

The computer room housed the servers that store claimants’ confidential information
and about 40 surplus computers. The lack of adequate physical security safeguards
placed sensitive SSA equipment and data at risk. OR-DDS should install a barrier or
motion sensor above the computer room ceiling to further deter unauthorized entry.

INVENTORY RECORDS

OR-DDS did not list 17 new laptop computers in its inventory records. In October 2009,
OR-DDS received the laptops when desktop computers had been ordered. OR-DDS
subsequently received the desktop computers and decided to keep the laptops.
However, as of May 2011, the laptops were not listed in OR-DDS’ inventory records.
OR-DDS should have inventoried the laptops immediately to reduce the risk of theft or
loss.

SSA policy states the DDS is responsible for the maintenance and inventory of all
equipment acquired—whether purchased through SSA or the State. The equipment
inventory must include a description, source of funds used in purchase, inventory or
serial number, date purchased, and physical location of the equipment. 15

OR-DDS should maintain a current and accurate inventory list to properly safeguard
its assets. During our review, OR-DDS took action to include the laptops in its inventory
records. OR-DDS also strengthened its procedures over the receipt and disposal of its
equipment.




15
     20 C.F.R. §§ 404.1628 and 416.1028; see also SSA, POMS, DI 39530.020.B.1 (October 1, 2002).
Page 6 – Stanley Friendship


CONCLUSION AND RECOMMENDATIONS
SSA and OR-DDS needed to improve controls and procedures to ensure it establishes
a fee schedule for payment of medical services in accordance with Federal regulations
and SSA policy. In addition, OR-DDS needed to improve controls to properly (1) secure
its workspace after regular work hours and access to its computer room and (2) list
17 new laptop computers in its inventory records.

We recommend that SSA:

1. Work with OR-DDS to ensure the payments for medical costs do not exceed the
   maximum amount allowed under Federal regulations.

2. Instruct OR-DDS to arrange for janitorial services during regular work hours. If
   daytime cleaning is not possible, ensure all sensitive information is secure after work
   hours.

3. Ensure OR-DDS implements controls to further secure the ceiling in the computer
   room.

AGENCY COMMENTS
SSA agreed with all our recommendations. For Recommendation 1, OR-DHS believed
the OR-DDS had complied with SSA policy and was working with the SSA regional
office to review its medical fee schedule. For Recommendations 2 and 3, OR-DHS
stated the OR-DDS had taken, or was taking corrective action.

See Appendices D and E for the full text of SSA’s and OR-DHS’ comments.




                                      Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Social Security Administration Comments
APPENDIX E – Oregon Department of Human Services Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
Act             Social Security Act
CE              Consultative Examination
C.F.R.          Code of Federal Regulations
DDS             Disability Determination Services
DI              Disability Insurance
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
FY              Fiscal Year
OIG             Office of the Inspector General
OMB             Office of Management and Budget
POMS            Program Operations Manual System
OR-DDS          Oregon Disability Determination Services
OR-DHS          Oregon Department of Human Services
Pub. L. No.     Public Law Number
SSA             Social Security Administration
SSI             Supplemental Security Income
Treasury        Department of the Treasury
U.S.C.          United States Code
WC              Workers’ Compensation
                                                                      Appendix B

Scope and Methodology
We reviewed the administrative costs the Oregon Disability Determination Services
(OR-DDS) reported to the Social Security Administration (SSA) on its State Agency
Report of Obligations for SSA Disability Programs (Form SSA-4513) for Federal Fiscal
Years (FY) 2009 and 2010. Accordingly, OR-DDS reported the following disbursements
and unliquidated obligations on its Form SSA-4513.

                     Category                         FY 2009             FY 2010
    Disbursements
      Personnel Costs                               $14,065,118         $14,974,260
      Medical Costs                                   7,604,373           7,912,596
      Indirect Costs                                  1,225,016             957,249
      All Other Non-personnel Costs                   2,318,450           2,286,741
      Total Disbursements                            25,212,957          26,130,846
    Unliquidated Obligations                            247,180           1,241,145
    Total Obligations                               $25,460,137         $27,371,991

To accomplish our objective, we

•     reviewed Office of Management and Budget Circular A-87, Cost Principles for State,
      Local, and Indian Tribal Governments; the Code of Federal Regulations; and SSA’s
      Program Operations Manual System;

•     reviewed OR-DDS’ policies and procedures related to Personnel, Medical, Indirect,
      and All Other Non-personnel costs;

•     interviewed employees from SSA, OR-DDS, Oregon Department of Human Services
      (OR-DHS), and Oregon Workers' Compensation Division;

•     reconciled the amount of Federal funds drawn to support program operations to the
      allowable expenditures;

•     examined the administrative costs incurred and claimed by OR-DDS for Personnel,
      Medical, and All Other Non-personnel costs during FYs 2009 and 2010;

•     reconciled the accounting records to the administrative costs reported by OR-DHS
      on its Form SSA-4513 for FYs 2009 and 2010;

•     selected a random sample of Personnel, Medical, and All Other Non-personnel
      costs;


                                            B-1
•   verified indirect costs for FYs 2009 and 2010 based on the approved indirect cost
    allocation plan;

•   performed a physical inventory of equipment that SSA provided to the OR-DDS; and

•   conducted a limited examination of OR-DDS’ general security controls environment.

We determined the electronic data used in our audit were sufficiently reliable to achieve
our audit objectives. We assessed the reliability of the electronic data by reconciling or
comparing them with the costs claimed on the Form SSA-4513. We also conducted
detailed audit testing on selected data elements from the electronic files.

We performed audit work at OR-DHS and OR-DDS in Salem, Oregon. We also
performed audit work at the Office of Audit in Richmond, California. We conducted our
fieldwork between May 2011 and February 2012.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                           B-2
                                                                     Appendix C

Sampling Methodology and Results
Our sampling methodology included the three general areas of costs reported on
the State Agency Report of Obligations for SSA Disability Programs (Form SSA-4513):
(1) Personnel, (2) Medical, and (3) All Other Non-personnel costs. We obtained
computerized data from the Oregon Disability Determination Services (OR-DDS)
for Federal Fiscal Years (FY) 2009 and 2010 for statistical sampling.

Personnel Costs

We randomly selected 1 pay period in FY 2010 and reviewed a random sample of
50 personnel transactions. We tested payroll records to ensure OR-DDS accurately
paid its employees and adequately supported these payments.

Medical Costs

We selected 100 medical cost items for review. Using a stratified random sample, we
selected 50 medical payment records from each FY. We distributed the sample items
between medical evidence of record and consultative examination payments based on
the proportional distribution of the total medical costs for each year.

In addition, we reviewed a random sample of 200 consultative examination payments
to determine whether the payment rates exceeded the highest rate paid by Federal or
other State agencies for the same or similar types of services. Based on our random
sample, we determined OR-DDS paid $24,627 in medical costs for 180 consultative
examinations in excess of the amount allowed under the Medicare fee schedule.
Projecting these results to our population of 43,114 consultative examinations,
we estimate that OR-DDS paid about $5.3 million in excess medical costs for
38,803 consultative examinations during FYs 2009 and 2010.

All Other Non-personnel Costs

We reviewed 100 All Other Non-personnel cost items. Using a stratified random
sample, we selected 50 payment records for each FY. Before selecting the sample
items, we sorted the transactions into the following categories: (1) contracted
costs, (2) electronic data processing maintenance, (3) equipment purchases,
(4) communication, (5) applicant travel, (6) OR-DDS travel, (7) supplies, (8) occupancy,
and (9) miscellaneous. We then distributed the sample items between categories
based on the proportional distribution of the total non-personnel costs for each year.
We reviewed all transactions for contracted costs, equipment purchases, and
occupancy costs for each year.




                                          C-1
The following tables provide the details of our sample results and statistical projections.

                            Table C-1 – Population and Sample Size

               Description                                          Number of Payments
 Population Size                                                         43,114
 Sample Size                                                                200

Table C-2 – Payments for Consultative Examinations in Excess of Medicare Rates

                                                                            Amount Paid in Excess
         Description                     Number of Payments                   of Medicare Rates
 Sample Results                                      180                               $24,627
 Point Estimate                                   38,803                            $5,308,754
 Projection - Lower Limit                         36,997                            $4,674,581
 Projection - Upper Limit                         40,211                            $5,942,927
Note: All statistical projections are at the 90-percent confidence level.




                                                     C-2
                                   Appendix D

Social Security Administration Comments
April 12, 2012

MEMORANDUM

TO:              Inspector General
                 Office of the Inspector General

FROM:            Regional Commissioner
                 Seattle Region

SUBJECT:         Administrative Costs Claimed by the Oregon Disability Determination Services
                 (A-09-11-11163)—REPLY

This responds to the draft report of the Office of the Inspector General (OIG) audit of the
Oregon Disability Determination Services’ (OR-DDS) Administrative Costs (A-09-11-11163).
Comments on the four recommendations are provided below:

       Recommendation 1: Work with OR-DDS to ensure the payments for medical costs do
       not exceed the maximum amount allowed under Federal regulations.

       Response: We concur. Staff from the Region’s Center for Disability will be onsite in the
       OR-DDS during the week of April 16 to review and assist in revising the fee schedule to
       ensure full compliance with the Federal regulations.

       Recommendation 2: Instruct OR-DDS to arrange for janitorial services during regular
       work hours. If daytime cleaning is not possible, ensure all sensitive information is secure
       after work hours.

       Response: We concur. The DDS is in the process of instituting a clean desk policy. We
       anticipate full implementation of the policy by April 30, 2012.

       Recommendation 3: Ensure OR-DDS implements controls to further secure the ceiling
       in the computer room.

       Response: The DDS requested and received approval from the Seattle Regional Office
       for funding to install motion sensors to identify any intrusion through the ceiling. The
       motion sensors are tied to the existing security monitoring system, and installation was
       completed on March 30, 2012.

We appreciate the opportunity to comment on the draft audit recommendations. If your staff
has any questions regarding our comments, please contact Don Larsen, Disability Program
Administrator in the Center for Disability, at telephone number 206-615-2651.



                                       Stanley C. Friendship
                                 Appendix E

Oregon Department of Human Services
Comments
         Oregon                                                   Department of Human Services
                                                                       Aging & People with Disabilities
           John A. Kitzhaber, MD, Governor
                                                                            Developmental Disabilities
                                                                           500 Summer St. NE, E-02
                                                                                  Salem, OR 97301
                                                                               Voice: 503-945-5858
                                                                                 Fax: 503-373-7823
                                                                                TTY: 503-945-5896
April 11, 2012


Patrick P. O’Carroll, Jr.
Inspector General
Social Security Administration
Baltimore, MD 21235-0001

RE: Draft Report Number A-09-11-11163

Dear Mr. O’Carroll:

Thank you for the opportunity to respond to the draft audit report entitled, Administrative Costs
Claimed by the Oregon Disability Determination Services (A-09-11-11163). We have addressed
the specific findings in the order they appear in the draft report.

The Oregon Department of Human Services (DHS), Disability Determination Services (DDS),
would first like to provide the following additional information in regards to the finding that the
“DDS did not establish a fee schedule for payment of medical services in accordance with
Federal regulations and Social Security Administration (SSA) policy.”

We feel the DDS complies with POMS DI 39545.625.B.1 and uses an existing state fee schedule
that does not exceed the payment rates for other state agencies purchasing the same or similar
types of services. Seventeen years ago, the DDS established our current consultative examination
(CE) fee schedule based on the Workers’ Compensation fee schedule used by other state
agencies for payment of similar services. The DDS relied on the Oregon Administrative Rules
(OARs) to support compliance with SSA policy.

As mentioned in the report, the DDS has routinely submitted an annual Oversight Report to the
SSA Seattle regional office per POMS DI 39545.700. The DDS has also submitted to the
Regional Office any updates to its payment rates for medical services as changes occurred. At no
time did the SSA Seattle Regional Office

               “Assisting People to Become Independent, Healthy and Safe”




                                                E-1
Patrick P. O’Carroll, Jr.
April 11, 2012
Page 2 of 3




direct the DDS to revise or change the CE fee schedule. It is our belief that the Oregon DDS CE
rate schedule remains in compliance with SSA policy.

The Oregon Department of Human Services, Disability Determination Services, continues to be
committed to controlling medical costs. The DDS has contacted the SSA Seattle Regional Office
to begin the process of reviewing and possibly revising the fee schedule to align the consultative
examination rates more closely to those of the other DDSs that have the same challenges in
recruiting consultative examination providers.

We have the following responses in regards to the Physical Security findings in the report:

Janitorial Service
    • Renegotiating the contract for the janitorial service to complete their work during regular
        business hours is not possible because staff who work with Mt. Angel Janitorial Services
        have other jobs during the day, and the janitorial service is not able to add additional staff
        at this time. As a result, the DDS is in the process of instituting a clean desk policy. We
        anticipate full implementation of the policy by April 30, 2012.

Computer Room
  • The DDS worked with DHS facilities management to secure the computer room ceiling
     through installation of motion sensors to prevent intrusion through the ceiling. The DDS
     requested and received approval from the SSA Seattle Regional Office for the proposal
     and funding requirements. The installation of motion sensors, which are tied to the
     existing security monitoring system, was completed on March 30, 2012.

Inventory Records
   • As mentioned in the report, the DDS did not list 17 new laptop computers in its inventory
       records. DDS staff will enforce the existing inventory policy and immediately put new
       equipment on the inventory list. The 17 laptops in question were added to the DDS
       inventory on May 3, 2011.

Thank you for the opportunity to comment on the draft report. If you or your staff have any
questions regarding these comments, please contact Mary Gabriel, DDS Program Director,
Oregon DDS at (503) 986-4809.

Sincerely,


Patricia E. Baxter
Chief Operating Officer

cc: Mary Gabriel, Oregon DDS
    Erinn Kelley-Siel, Director



                                                 E-2
                                                                        Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Jack H. Trudel, Audit Manager

Acknowledgments

In addition to those named above:

   Daniel Hoy, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/
or contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-09-11-11163.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
